No. 20A62

In The

Supreme Court of the United States
WILBUR L. ROSS, JR., SECRETARY OF COMMERCE, ET AL.
Applicants,
V.
NATIONAL URBAN LEAGUE, ET AL.,
Respondents
RESPONSE TO APPLICATION FOR A STAY PENDING APPEAL TO THE
UNITED STATES COURT OF APPEALS FOR THE NINTH CIRCUIT AND
PENDING FURTHER PROCEEDINGS IN THIS COURT AND REQUEST FOR AN
IMMEDIATE ADMINISTRATIVE STAY
CERTIFICATE OF SERVICE
I, Melissa Arbus Sherry, a member of the Bar of this Court and counsel of
record for Respondents, hereby certify that on October 10, 2020, I caused the
Response to Application for a Stay Pending Appeal to the United States Court of
Appeals for the Ninth Circuit and Pending Further Proceedings in this Court and
Request for an Immediate Administrative Stay in the above-captioned case to be
served by electronic mail, by agreement of the parties and in accordance with
Supreme Court Rule 29.3, to:
Jeffrey B. Wall
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for Applicants

Additionally, the electronic version of the Response to Application for a Stay
Pending Appeal to the United States Court of Appeals for the Ninth Circuit and
Pending Further Proceedings in this Court and Request for an Immediate
Administrative Stay was transmitted to Counsel for Applicants at the referenced
email address in accordance with Supreme Court Rule 29.3.
I further certify that all parties required to be served have been served.

By __________________________
Melissa Arbus Sherry
Counsel for Respondents National
Urban League; League of Women
Voters; Black Alliance for Just
Immigration; Harris County, Texas;
King County, Washington; City of San
Jose, California; Rodney Ellis;
Adrian Garcia; and the NAACP

2

